                             Office of the Inspector General


September 27, 1999

John R. Dyer

Principal Deputy Commissioner

 of Social Security


Acting Inspector General



School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007)



Attached is a copy of the subject final report. Our objective was to determine the

propriety of Social Security benefits paid to student beneficiaries after reaching age 18

and the adequacy of controls and procedures to ensure they attended school on a

full-time basis.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide them within the

next 60 days. If you wish to discuss the final report, please call me or have your

staff contact Daniel R. Devlin, Acti ng Assistant Inspector General for Audit, at

(410) 965-9700.





                                                 James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    SCHOOL ATTENDANCE BY
     CHILD BENEFICIARIES
         OVER AGE 18


  September 1999   A-09-97-61007




AUDIT REPORT

                     EXECUTIVE SUMMARY


OBJECTIVE

The objective of this audit was to determine the propriety of Social Security benefits
paid to student beneficiaries after reaching age 18 and the adequacy of controls and
procedures to ensure they attended school on a full-time basis.

BACKGROUND
Title II of the Social Security Act (Act) provides benefits to children of insured workers
upon the retirement, death or disability of the worker. Generally, child beneficiaries may
continue to receive benefits until they marry or reach age 18. Amendments to the Act
provide for extended benefits beyond age 18 to enable child beneficiaries who are
full-time students to complete their education. The Social Security Administration (SSA)
monitors and administers all phases of student entitlement beginning with the mailing of
an advance notice prior to the child reaching age 18 through the termination of benefits.

The Act states that a child of a beneficiary is entitled to Social Security benefits if he or
she is a full-time student at an elementary or secondary school upon reaching age 18
and has not completed the requirements for a diploma or equivalency certificate.1 For
schools that do not require enrollment each quarter or semester, student benefits will
continue through the earlier of: (1) the second month after the month in which the child
reaches age 19, or (2) the month when the student completes the course in which he or
she is enrolled. For schools that require enrollment each quarter or semester, student
benefits will continue through the last month of the quarter or semester in which the
student reaches age 19.

RESULTS OF REVIEW
Our review of 3 populations of student beneficiaries disclosed that an estimated
30,991 (or 11.5 percent) of 270,119 individuals received payments to which they were
not entitled. Also, we were unable to determine the propriety of payments to an
additional 35,950 (or 13.3 percent) student beneficiaries. We estimated that the
incorrect and unsupported payments amounted to $73.9 and $140.4 million,
respectively. These estimates are based on statistical projections of 3 samples of
100 items randomly selected from 3 populations (see Appendix B). 2

    1
       Section 202(d)(1), 42 United States Code § 402(d)(1).
    2
       For illustrative purposes, the total projections represent the sum of the point estimates from each of
the three unrestricted random samples. They do not represent the sum of the total estimated incorrect
and unsupported payments over a specific period of time.


                                                      i
The incorrect payments occurred because SSA had not established an effective
monitoring system to detect when students were not attending school on a full-time
basis. In addition, SSA had not established automated controls to prevent
overpayments resulting from clerical errors in determining the maximum age of
entitlement for students. The unsupported payments occurred because SSA
procedures require that documentation related to student beneficiaries be destroyed
120 days after processing. Also, SSA had not retained sufficient information to
otherwise support its basis for awarding student benefits.

CONCLUSIONS AND RECOMMENDATIONS

SSA officials informed us that they are currently in the process of redesigning the
student monitoring system. We concluded that SSA needs to implement a more
proactive monitoring system and retain supporting documentation for student
beneficiaries. This system should provide for timely identification of events that affect
the entitlement of individuals to student benefits, thereby reducing the amount of
overpayments to ineligible beneficiaries. Such a system should also reduce the
vulnerability of the Agency to individuals who misrepresent their intentions of returning
to school in order to continue receiving Social Security benefits. Specifically, we
recommend that SSA:

•	 Request assistance from school officials in identifying and reporting changes in
   student attendance which may affect their benefit status.

•	 Evaluate the feasibility of shifting the responsibility for monitoring student
   beneficiaries from the program service centers (PSC) to the field offices (FO).

•	 Obtain additional information from schools about student attendance prior to
   awarding benefit payments.

•	 Provide training and guidance to SSA employees who monitor student beneficiaries
   to ensure that they fully understand the requirements of the Act for determining the
   maximum age of entitlement.

•	 Perform a follow-up review to identify all students in current pay status beyond age
   19 years and 2 months prior to the end of Fiscal Year (F Y) 2000. For each of these
   students, review the case to ensure that appropriate actions were taken to terminate
   benefits and establish overpayments.

•	 Retain school information to provide: (1) the supporting documentation for awarding
   student benefits, and (2) the necessary information for monitoring student
   beneficiaries.




                                             ii
AGENCY COMMENTS
In its response, SSA agreed with all of our recommendations. As a result of our audit,
SSA further agreed to accelerate its ongoing efforts to redesign the student monitoring
system. SSA stated that it is currently in the process of (1) testing different methods of
approaching schools for assistance in monitoring student attendance, (2) preparing a
letter to request information from schools prior to awarding benefits and during the
school year, and (3) developing instructions to implement these changes in calendar
year 2000. SSA added that it would evaluate the feasibility of retaining additional
school information and shifting the student workload from PSCs to FOs during the
redesign.

SSA acknowledged that systems modifications have already been implemented to
preclude benefit payments beyond the maximum age of entitlement. SSA also
stated that it would perform a follow-up review by the end of FY 2000 to ensure the
effectiveness of these modifications and issue additional instructions to its employees
within 90 days.

In addition, SSA provided technical comments that have been considered and
incorporated, where appropriate, in this final report. The full text of SSA’s comments
is included in Appendix C.

THE OFFICE OF THE INSPECTOR GENERAL RESPONSE

SSA’s planned actions adequately address all of our recommendations.




                                             iii
                           TABLE OF CONTENTS


                                                                                                                         Page


EXECUTIVE SUMMARY ....................................................................................................i


INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................5


     INCORRECT PAYMENTS TO STUDENT BENEFICIARIES.................................6


     �    Monitoring of Students During the School Year .................................................6

     �    Verification of Student Eligibility for Benefits.......................................................9

     �    Payment of Benefits Beyond Maximum Age of Entitlement .............................9


     UNSUPPORTED PAYMENTS TO STUDENT BENEFICIARIES........................12


CONCLUSIONS AND RECOMMENDATIONS ...........................................................14


APPENDICES
APPENDIX A - Acronyms

APPENDIX B - Sampling Methodology

APPENDIX C - Agency Comments

APPENDIX D - Major Contributors to the Report

APPENDIX E - SSA Organizational Chart

                               INTRODUCTION


OBJECTIVE

The objective of this audit was to determine the propriety of Social Security benefits
paid to student beneficiaries after attaining age 18 and the adequacy of controls and
procedures to ensure they attended school on a full-time basis.

BACKGROUND
The Old-Age, Survivors and Disability Insurance (OASDI) program provides benefits to
children of insured workers upon the retirement, death or disability of the worker.
Generally, child beneficiaries may continue to receive benefits until they marry or reach
age 18. In 1965, the Social Security Act (Act) was amended to extend a child’s benefits
until age 22 as long as the child was enrolled in high school, college, graduate school or
vocational school on a full-time basis. 3 This provision was eliminated in 1981, but
children were allowed to receive benefits if they were full-time elementary or secondary
students until age 19.4 The legislative intent for these changes enabled child
beneficiaries who were full-time students to complete their education. The Social
Security Administration (SSA) monitors and administers all phases of student
entitlement beginning with the mailing of an advance notice prior to the child reaching
age 18 through the termination of benefits.

The Act states that a child of a beneficiary is entitled to Social Security benefits if he or
she is a full-time student at an elementary or secondary school upon reaching age 18
and has not completed the requirements for a diploma or equivalency certificate.5 For
schools that do not require enrollment each quarter or semester, student benefits will
continue through the earlier of: (1) the second month after the month in which the child
reaches age 19, or (2) the month when the student completes the course in which he or
she is enrolled. For schools that require enrollment each quarter or semester, student
benefits will continue through the last month of the quarter or semester in which the
student reaches age 19.

Conversion of Beneficiary from Child to Student

SSA sends a notice to child beneficiaries about 5 months before the child reaches
age 18. This notice instructs child beneficiaries to apply for student benefits if they plan
to attend school beyond age 18. Child beneficiaries who complete Form SSA-1372,

   3
       Public Law 89-97, 79 Stat. 372.
   4
       Omnibus Budget Reconciliation Act of 1981, Public Law 97-35, 95 Stat. 357.
   5
       Section 202(d)(1), 42 United States Code § 402(d)(1).


                                                   1
Student’s Statement Regarding School Attendance, are awarded benefits provided
they are in full-time attendance at a secondary school or a General Educational
Development program. Payments for child beneficiaries who do not complete
Form SSA-1372 are terminated at age 18. SSA verifies whether students are in school
on a full-time basis and determines their continuing eligibility to Social Security benefits
through two compliance activities, which occur at the beginning and end of the school
year.

Beginning of School Year

At the beginning of the school year, SSA mails Form SSA-1386, Student’s Statement
Regarding Resumption of School Attendance, to student beneficiaries. This form is
used to obtain information about the students’ marital status, school attendance and
earnings. The students are required to complete the form and obtain school certification
that they are in full-time attendance. If Form SSA-1386 is not returned to SSA within
45 days, student benefits are suspended. SSA then provides students with an
additional 90 days to complete the form. If the form is not received by the end of the
90-day period, student benefits are terminated retroactively to the beginning of the
school year and overpayments are established.

End of School Year

Near the end of the school year, SSA mails Form SSA-1388, Report of Student
Beneficiary at End of School Year, to student beneficiaries. The students are required
to complete the form and obtain school certification that they are in full-time attendance.
This form is used to verify current eligibility for student benefits and determine
continuing entitlement for the next school year. If the students intend to return in the
fall, they will continue to receive benefits throughout the summer. If the students
graduate in the spring or do not plan to return in the fall, their benefits are terminated at
the end of the current term or when they reach age 19, whichever occurs first.

If Form SSA-1388 is not returned to SSA, student benefits are terminated. About
90 days after the termination actions, alerts are generated through SSA’s automated
system. These alerts, called “90-day alerts,” require PSC employees to directly contact
the students’ last school of record. During this contact, program service center (PSC)
employees must identify the students’ last month of full-time attendance, determine
whether the termination actions were correct, and take additional actions as
appropriate. For the most part, PSC employees are required to make direct contact
with schools only when the “90-day alerts” are generated.

Maximum Age of Entitlement

About 3 months before the child reaches age 19, SSA mails Form SSA-1390, Report of
Student Beneficiary About to Attain Age 19, to student beneficiaries. This form is used
to ascertain whether students intend to remain in school after they reach age 19.
Students who are still in school when they reach age 19 may continue to receive


                                              2
benefits for an extended period of time. However, students who reach age 19 in a
month of nonattendance (e.g., during summer vacation) are not eligible for extended
benefits. If Form SSA-1390 is not returned to SSA, student benefits are terminated at
age 19.

Students who reach age 19 in a month in which they are in full-time attendance
and have not completed the requirements for (or have not received) a diploma or
equivalency certificate are eligible for extended benefits. Generally, the maximum age
of entitlement is 2 additional months after the student reaches age 19 or the month
when the student completes the course in which he or she is enrolled, whichever occurs
first. Alternatively, in some instances, the maximum age of entitlement is the month
ending the term in progress when the student reaches age 19.

SCOPE AND METHODOLOGY

Based on SSA’s Master Beneficiary Record (MBR), we randomly selected 300 student
beneficiaries for review. A total of 100 students were selected from each of the
following 3 populations: (1) 71,474 students in current pay status as of
October 1, 1997; (2) 141,944 students whose benefits were terminated between
September 1996 and August 1997 because they did not attend school; and
(3) 56,701 students whose benefits were terminated between September 1996
and August 1997 because they reached age 19. The total benefits paid to the
270,119 students in the 3 populations was $935.1 million.

To accomplish our objective, we:

   •	 reviewed the applicable sections of the Act, Code of Federal Regulations, and
      SSA’s Program Operations Manual System (POMS);

   •	 conducted interviews with officials from SSA’s Headquarters, including the Office
      of Program Benefits (OPB); Office of Systems Requirements (OSR); Office of
      Systems Design and Development; Office of Public Services and Operations
      Support (OPSOS); Office of Budget; Office of Program and Integrity Reviews; 6
      Office of Research, Evaluation and Statistics; and Office of Workforce Analysis;

   •	 conducted interviews with officials at SSA’s six PSCs (i.e., Northeastern,
      Mid-Atlantic, Southeastern, Great Lakes, Western, and Mid-America) and the
      Office of Disability and International Operations (ODIO);7

   •	 extracted 3 random samples of 100 student beneficiaries, and obtained MBR and
      Payment History Update System queries from SSA’s computerized beneficiary
      data bases;


   6
       Renamed as the Office of Quality Assurance and Performance Assessment.
   7
       Renamed as the Office of Central Operations.


                                                 3
   •	 reviewed case folders to determine the propriety of benefits awarded to the
      students and the adequacy of support for the benefit payments; and

   •	 contacted schools and students, via letter and telephone, to verify school
      attendance for the students in our three samples.

We evaluated the adequacy of SSA’s controls and procedures to ensure that student
beneficiaries who received Social Security benefits after reaching age 18 were eligible
for benefit payments in accordance with the requirements of the Act.

During our audit, we identified a weakness in SSA’s automated controls over the
payment of benefits to students who were beyond the maximum age of entitlement.
Therefore, using our data extract of 71,474 student beneficiaries who were in current
pay status as of October 1, 1997, we conducted an additional review of students paid
beyond age 19 years and 2 months.

For the students in current pay status, we contacted schools to verify that the students
were in school on a full-time basis. For the terminated students, we contacted schools
to verify that the students had attended school for the months in which they received
benefits. If we were unable to identify the school, we attempted to contact the student
directly to verify school attendance.

We projected our sampling results to the three populations using the Office of the
Inspector General (OIG), Office of Audit, statistical software for variable analysis and
attribute analysis of a random sample. All estimates in our report are the midpoint
projections (point estimates).

We performed audit work in Baltimore, Maryland, and Richmond, California, between
October 1997 and September 1998. We conducted our audit in accordance with
generally accepted government auditing standards.




                                             4
                         RESULTS OF REVIEW


Our review of 3 populations of student beneficiaries disclosed that an estimated
30,991 (or 11.5 percent) of 270,119 individuals received payments in error because
SSA had not established an effective monitoring system to detect when students were
not attending school on a full-time basis. In addition, SSA had not established
automated controls to prevent overpayments resulting from clerical errors in determining
the maximum age of entitlement for students.

We were unable to determine the propriety of payments to an additional 35,950 (or
13.3 percent) individuals because SSA procedures require that documentation related
to student beneficiaries be destroyed 120 days after processing. Also, SSA had not
retained sufficient information to otherwise support its basis for awarding student
benefits. We estimated that the incorrect and unsupported payments amounted to
$73.9 and $140.4 million, respectively. These estimates are based on statistical
projections of 3 samples of 100 items randomly selected from 3 populations (see
Appendix B).8 The results of our review are summarized below.



                     Summary of Student Beneficiaries Reviewed



                                                                            Incorrect
                                                                            Payments
                          Correct                                             12.7%
                         Payments
                           72.6%
                                                                           Unsupported
                                                                            Payments
                                                                              14.7%




        Note: The error rates from the sample are different than the projected rates for the population because the
        projections are weighted by calculating each stratum separately. Amounts may vary due to rounding.




    8
       For illustrative purposes, the total projections represent the sum of the point estimates from each of
the three unrestricted random samples. They do not represent the sum of the total estimated incorrect
and unsupported payments over a specific period of time.


                                                         5
INCORRECT PAYMENTS TO STUDENT BENEFICIARIES
Of the 300 student beneficiaries in our 3 samples, we found that SSA had incorrectly
paid benefits to 38 students (or 12.7 percent) who were not in school as required or
were beyond the maximum age of entitlement. This occurred because SSA had not
established an effective monitoring system to detect when students did not attend
school on a full-time basis. In addition, SSA had not established automated controls to
prevent overpayments resulting from clerical errors in determining the maximum age of
entitlement for students. As a result, these individuals received student benefits for
which they were not eligible.

A child of a beneficiary is entitled to Social Security benefits as a student if he or she is
enrolled in a full-time elementary or secondary school upon reaching age 18 and has
not completed the requirements for a diploma or equivalency certificate.9 Based on our
review of case folders and interviews with SSA and school officials, we determined that
SSA improperly paid student benefits to 38 individuals in our 3 samples. A breakdown
of the incorrect payments to these student beneficiaries is provided below.



                                    Incorrect Payments to Student Beneficiaries
                               12
       Number of Individuals




                               10                                    Did Not Attend School

                                                                     Dropped Out of School
                               8
                                                                     Paid Past Graduation
                               6
                                                                     Attended School Part-Time
                               4
                                                                     Paid Past Maximum Age of
                               2                                     Entitlement

                               0




These overpayments went undetected because of inadequate controls over the:
(1) monitoring of students during the school year, (2) verification of student eligibility for
benefits, and (3) payment of benefits beyond the maximum age of entitlement.

Monitoring of Students During the School Year

For 26 of the 38 incorrect payments, the individuals were eligible for student benefits but
were overpaid because they graduated, dropped out or attended school part-time. This
occurred because SSA did not adequately monitor the school attendance of these

   9
       Section 202(d)(1), 42 United States Code § 402(d)(1).


                                                         6
students during the school year. The individuals were ineligible because 11 were paid
benefits beyond graduation, 9 dropped out of school and 6 attended school on a
part-time basis. SSA relies on beneficiaries to voluntarily report events which may
affect their benefit status. Although these individuals were in school on a full-time basis
at the beginning of the school year, we determined that they subsequently graduated,
dropped out or attended school part-time without notifying SSA. As a result, these
individuals were no longer entitled to receive student benefits.

Generally, SSA’s student monitoring system covers the beginning and ending of the
school year. As shown in the chart below, SSA does not provide ongoing monitoring of
student attendance during the school year. We believe that SSA’s monitoring system is
reactive rather than proactive and is more likely to identify terminating events at the end
of the school year instead of during the school year. Such a process may result in an
increase in the number and amount of overpayments. For example, if a student begins
school during the first week of September and drops out of school without informing
SSA during the first week of October, our review disclosed that it is unlikely that SSA
will become aware of the terminating event until after the end of the school year in June.
By this time, SSA may have overpaid the student for 9 months of benefits. An overview
of the current student monitoring system is depicted below. 10


                   Current Student Monitoring System
                                       Typical School Year


        Sept     Oct   Nov     Dec     Jan       Feb     Mar        April   May    June   July

                                      SSA relies on students to
  Prior to beginning of              report changes which may                 Prior to end of year,
  year, Form SSA-1386                 affect their benefit status             Form SSA-1388 is
  is mailed to student,                                                       mailed to student,
  completed by                                                                completed by
  student and school,                                                         student and school,
  and returned to SSA.                                                        and returned to SSA.



  If the form is not returned,                            If the form is not returned, benefits are
  benefits are suspended and                              terminated. The school is contacted to
  then terminated. The school                             verify attendance. If the student is not in
  is not contacted.                                       school, an overpayment is established.




   10
         Program Operations Manual System (POMS) sections SM 00604.750 and RS 00205.450.


                                                  7
Recommendations for Improvement of SSA’s Monitoring System

We believe that SSA could make its monitoring system more proactive, thereby
preventing or reducing the amount of overpayments to student beneficiaries. The
current system places emphasis on the verification of student attendance with the
students, not the schools. During our audit, we discussed a number of options for
improving the student monitoring process with SSA officials from various Headquarters
components in Baltimore, Maryland.11 SSA officials informed us that they are currently
in the process of redesigning the student monitoring system. There was general
agreement between OIG and SSA that additional information was needed from the
schools prior to awarding student benefits. This information would be used to confirm
the statements made by individuals on their applications for student benefits.

In addition, SSA needs to request school officials to identify and report when student
beneficiaries are no longer in school on a full-time basis as required. We believe that
SSA may be able to obtain such assistance by sending a letter to school administrators
shortly after students have been awarded Social Security benefits. This letter would
explain the eligibility requirements of the student benefit program and seek voluntary
assistance from the schools in identifying terminating events (e.g., student beneficiaries
who drop out, graduate or attend school on a part-time basis). To assist school officials
in reporting such events, SSA should include a standard form with a postage paid,
return envelope. Alternatively, SSA could request school officials to call SSA’s toll-free
telephone number to report terminating events.

We also discussed the feasibility of shifting the responsibility for monitoring student
beneficiaries from the PSCs to the field offices (FO). Currently, six PSCs and ODIO
process student actions as part of their post-entitlement workload under the OASDI
program. This workload is allocated based on Social Security numbers, not where the
beneficiaries are living. For example, the PSC in Richmond, California, may be required
to validate the attendance of students in New York. If personal interviews are
necessary, the PSC must make arrangements with the appropriate FOs in New York to
conduct the interviews. In addition, the PSC must inform the FOs about the nature and
extent of the information needed from the students. This process can be time
consuming and result in miscommunication between the PSCs, FOs and beneficiaries.
However, there are more than 1,200 FOs available within geographic areas where both
the students and schools are located. To improve the economy and efficiency of
program operations, we believe the entire student monitoring process should be
conducted by FOs located closest to the students, rather than by PSCs.




    11
        Including, but not limited to, the Office of Program Benefits; the Office of Systems Requirements;
the Office of Systems Design and Development; the Office of Public Services and Operations Support;
the Office of Budget; the Office of Research, Evaluation and Statistics; and the Office of Workforce
Analysis.


                                                     8
Verification of Student Eligibility for Benefits

For 8 of the 38 incorrect payments, the individuals were not in school on a full-time
basis when they applied for student benefits. This occurred because SSA’s controls
over the validation of student eligibility for benefits were ineffective to detect and prevent
these overpayments. SSA relies on beneficiaries to provide complete and accurate
information on their applications for student benefits. Current procedures do not require
SSA to validate the information on the applications with the schools. Although the
eight individuals completed the Form SSA-1372 prior to reaching age 18, six were in
school on a part-time basis, and two were not in school at all when they applied for
student benefits. None of these individuals attended school on a full-time basis after
reaching age 18. As a result, they were ineligible to receive any student benefits. We
have referred these eight cases to the Office of Investigations (OI).

If student eligibility is not validated prior to reaching age 18, the resulting overpayments
may be more costly to the Government because the individuals tend to be ineligible for
a longer period of time. For example, because of inadequate monitoring, 26 individuals
included in our audit were overpaid by an average of $2,105 over 5 months. However,
because of unverified eligibility, eight individuals were overpaid by an average of
$3,933 over 9 months.

We believe that acceptance of student information without independent verification
compromises the propriety of the benefit payments and the integrity of the student
entitlement process. Unless student eligibility is properly verified when they apply for
benefits, the program is vulnerable to fraud, waste and abuse. SSA needs to take
corrective action to reduce the potential for adverse publicity, legal challenges and
monetary losses. Therefore, we recommend that SSA obtain information about
student’s attendance from the schools prior to awarding benefit payments. Such
information is essential to corroborate the information provided by the students on their
applications for benefits.

OI has received allegations about individuals who falsely certified their school
attendance after reaching age 18 to receive student benefits. For example,
one individual received Social Security benefits as the minor surviving child of her
deceased father until June 1994, when she reached age 18 and was no longer eligible
as a child beneficiary. To qualify for extended benefits, this individual falsified her
application for student benefits to deceive SSA into believing that she still attended
school on a full-time basis. However, she was never a full-time student after reaching
age 18 and, therefore, was ineligible for extended benefits. Because her eligibility was
not verified when she applied for student benefits, she received $7,410 in overpayments
from June 1994 to May 1995. This individual was convicted in February 1999.

Payment of Benefits Beyond Maximum Age of Entitlement

For 4 of the 38 incorrect payments, the individuals were paid benefits beyond the
maximum age of entitlement. This occurred because SSA had not established


                                              9
automated controls to prevent overpayments resulting from clerical errors in determining
the maximum age of entitlement for students. In addition, PSC employees
misinterpreted POMS and believed that full-time students who reached age 19 during
the school year were entitled to benefits until the end of the school year. This practice
is not authorized under current procedures, and these individuals were no longer
entitled to receive student benefits.

POMS states that:

        If the school the student is attending does not require enrollment each
        quarter or semester, student benefits end the earlier of:

        •	 the first day of the third month following the month in which he or she
           actually attained age 19, or

        •	 the first day of the month after the month the student completes the
           course in which he or she is enrolled.

        If the school the student is attending does require enrollment each quarter
        or semester, student benefits end the first day of the month after the
        month in which the quarter or semester in which the student is enrolled
        ends.12

Based on our interviews with school officials, we determined that the four individuals in
our three samples were enrolled in schools which did not require enrollment on a
quarterly or semester basis. Accordingly, SSA should have terminated the benefit
payments for these individuals when they reached age 19 years and 2 months.
Nevertheless, the overpayments went undetected because SSA employees
misinterpreted the provisions for determining the maximum age for entitlement to
student benefits. Therefore, we recommend that SSA provide training and guidance to
employees who monitor student beneficiaries to ensure that they fully understand the
requirements of the Act for determining the maximum age of entitlement.

Additional Review of Students Paid Beyond 19 Years and 2 Months

Because of the lack of controls for detecting and preventing these overpayments, we
conducted an additional review of students paid beyond age 19 years and 2 months.
Using our data extract of 71,474 student beneficiaries who were in current pay status as
of October 1, 1997, we identified 111 instances where benefits were paid to individuals
beyond age 19 years and 2 months. Our review disclosed that these 111 individuals
received total overpayments of $229,660. The ages of the individuals paid beyond the
maximum age of entitlement is illustrated in the following graph.



   12
        POMS section RS 00205.150.


                                             10
                                Individuals Paid Beyond Maximum Age of Entitlement
                                              (19 Years and 2 Months)
                           30


                           25
   Number of Individuals




                           20


                           15


                           10


                            5


                            0




                                                                             1
                                                                          ++11
                                 19+3
                                    +3

                                     4




                                                                             3
                                                                    200++4


                                                                           +5

                                                                           +8

                                                                           +99

                                                                          +11
                                                          0

                                                      +11
                                                          7




                                                                          +2

                                                                        0++3

                                                                          +44
                                                                     200++55

                                                                      20+88

                                                                       20+9
                                  9++4

                                           +5




                                                         +8
                                                       +66




                                                         +9
                                                     99+++7




                                                                            0
                                                                         220




                                                                        +1
                                                                 2211+
                                                      +1




                                                                          +

                                                                          +
                                                 1199+




                                                                       200
                                 19




                                                                   220
                                                                       20

                                                                  220



                                                                    220

                                                                     220
                                                                        0
                                                                      220
                                                                        0
                                119


                                         19




                                                   119

                                                   119
                                                 1119




                                                                28
                                                19

                                                119



                                                     Age (Year + Months)



There was one individual who received benefits for 9 years and 9 months beyond
age 19 years and 2 months. This individual was born in January 1969 and reached
age 19 years and 2 months in March 1988. However, she continued to receive student
benefits until January 1998. During our audit, we referred this case to SSA for
immediate action. By the time her benefits were terminated, this individual had reached
age 28 years and 11 months and was overpaid by $48,007. We have referred this case
to OI. For the remaining 110 cases, the individuals received benefits on the average of
5.3 months beyond the maximum age of entitlement. Their overpayments averaged
$1,651.

In September 1998, we discussed this issue with SSA officials from OSR, OPB and
OPSOS in Baltimore, Maryland. SSA officials agreed with our finding and took
immediate corrective action. They attributed these errors to a systemic problem which
allowed employees to manually override existing controls and establish a student record
with an end-of-school-year date beyond the date that the student reached age 19 years
and 2 months. As a result, SSA subsequently modified its automated data entry
systems used to process transactions for student beneficiaries. These modifications
preclude the entry of an end-of-school-year date that would exceed the date when a
student reached age 19 years and 2 months.

We believe these modifications should prevent future occurrences of similar problems.
Prior to the end of Fiscal Year (FY) 2000, we recommend that SSA test the
modifications by performing a follow-up review to identify any students in current pay




                                                              11
status beyond age 19 years and 2 months. For each of these students, SSA should
review the case to ensure that student benefits were not paid beyond the maximum age
of entitlement.

UNSUPPORTED PAYMENTS TO STUDENT BENEFICIARIES

Of the 300 student beneficiaries in our 3 samples, we found that SSA was unable to
support its decision to award student benefits to 44 individuals (or 14.7 percent). This
occurred because SSA procedures require that documentation related to student
beneficiaries be destroyed 120 days after processing.13 Also, SSA had not retained
sufficient information to otherwise support its basis for awarding student benefits.
During our review, we attempted to identify the schools that these 44 individuals had
attended but were unable to do so. We also attempted to contact the students, via letter
and telephone, but were unsuccessful in our efforts.

Supporting documentation for SSA’s decision to award student benefits should
consist of applications for student benefits, beginning-of-school-year forms, and
end-of-school-year forms. However, POMS states that student beneficiary reports,
including related forms and documents, shall be destroyed 120 days from the date of
processing. There are no provisions for the storage or retention of pertinent information
(e.g., the name of the school) in SSA’s computerized data bases. Without supporting
documentation, we were unable to determine the propriety of the payments to
44 student beneficiaries in our 3 samples.

In addition, POMS requires PSCs to make direct contacts with schools if the
end-of-school-year forms are not returned.14 The purpose of the direct contact is to
verify attendance of the students and establish overpayments as appropriate. However,
our audit disclosed that SSA employees often cannot identify the schools to be
contacted because the forms which contained the name of the schools were destroyed.
As a result, PSCs may terminate benefits without further verification from student
beneficiaries who did not return the end-of-school-year forms. Without supporting
documentation, SSA employees may neither be able to make direct contacts with
schools in accordance with POMS nor determine the proper amount of overpayments.

We discussed this issue with SSA’s Headquarters and PSCs. In general, SSA officials
informed us that the Agency is moving toward a “paperless” processing system in which
transactions are processed without folders or documents. Such a system would not
require the maintenance or storage of paper documents such as student forms and
case folders. Consequently, SSA officials stated that the POMS criteria for student
beneficiaries was consistent with the “paperless” initiative. Although we encourage SSA
to modernize its management information systems, we do not believe that it alleviates
the need to document and support claims and post-entitlement actions. If such
information is not retained in paper form, then provisions for supporting documentation

   13
        POMS section DG 00510.025.
   14
        POMS section RS 00205.450.


                                           12
should be made in electronic form (e.g., scanning documents or annotating the MBR).
Otherwise, SSA cannot substantiate that student benefits were awarded in accordance
with the Act. Therefore, we recommend that SSA institute a system for retention of
school information to provide: (1) the supporting documentation for awarding student
benefits, and (2) the necessary information for monitoring student beneficiaries.




                                         13
 CONCLUSIONS AND RECOMMENDATIONS


We projected the 38 incorrect payments and 44 unsupported payments to the
3 populations totaling 270,119 student beneficiaries. We estimated that 30,991 (or
11.5 percent) of these individuals received payments to which they were not entitled.
Also, we were unable to determine the propriety of payments to an additional 35,950 (or
13.3 percent) of these individuals. The incorrect payments occurred because SSA had
not established an effective monitoring system to detect when students were not
attending school on a full-time basis. In addition, SSA had not established automated
controls to prevent overpayments resulting from clerical errors in determining the
maximum age of entitlement for students. The unsupported payments occurred
because SSA procedures require that documentation related to student beneficiaries
be destroyed 120 days after processing. Also, SSA had not retained sufficient
information to otherwise support its basis for awarding student benefits. Based on our
projections, we estimated that the incorrect and unsupported payments amounted
to $73.9 and $140.4 million, respectively (see Appendix B).

SSA officials informed us that they are currently in the process of redesigning the
student monitoring system. We believe that SSA needs to implement a more proactive
monitoring system and retain supporting documentation for student beneficiaries. This
system should provide for timely identification of events that affect the entitlement of
individuals to student benefits, thereby reducing the amount of overpayments to
ineligible beneficiaries. Such a system should also reduce the vulnerability of the
Agency to individuals who misrepresent their intentions of returning to school in order to
continue receiving Social Security benefits. Specifically, we recommend that SSA:

1.	 Request assistance from school officials in identifying and reporting changes in
    student attendance which may affect their benefit status.

2.	 Evaluate the feasibility of shifting the responsibility for monitoring student
    beneficiaries from the PSCs to the FOs.

3.	 Obtain additional information from schools about student attendance prior to
    awarding benefit payments.

4.	 Provide training and guidance to SSA employees who monitor student beneficiaries
    to ensure that they fully understand the requirements of the Act for determining the
    maximum age of entitlement.

5.	 Perform a follow-up review to identify all students in current pay status beyond age
    19 years and 2 months prior to the end of FY 2000. For each of these students,




                                              14
    review the case to ensure that appropriate actions were taken to terminate benefits
    and establish overpayments.

6.	 Retain school information to provide: (1) the supporting documentation for
    awarding student benefits, and (2) the necessary information for monitoring student
    beneficiaries.

AGENCY COMMENTS

In its response, SSA agreed with all of our recommendations. As a result of our audit,
SSA further agreed to accelerate its ongoing efforts to redesign the student monitoring
system. SSA stated that it is currently in the process of (1) testi ng different methods of
approaching schools for assistance in monitoring student attendance, (2) preparing a
letter to request information from schools prior to awarding benefits and during the
school year, and (3) developing instructions to implement these changes in calendar
year 2000. SSA added that it would evaluate the feasibility of retaining additional
school information and shifting the student workload from PSCs to FOs during the
redesign.

SSA acknowledged that systems modifications have already been implemented to
preclude benefit payments beyond the maximum age of entitlement. SSA also
stated that it would perform a follow-up review by the end of FY 2000 to ensure the
effectiveness of these modifications and issue additional instructions to its employees
within 90 days.

In addition, SSA provided technical comments that have been considered and
incorporated, where appropriate, in this final report. The full text of SSA’s comments
is included in Appendix C.

OIG RESPONSE

SSA’s planned actions adequately address all of our recommendations.




                                             15
APPENDICES

                                                             APPENDIX A


                           ACRONYMS


FO      Field Office


FY      Fiscal Year


MBR     Master Beneficiary Record


OASDI   Old-Age, Survivors and Disability Insurance


OIG     Office of the Inspector General


ODIO    Office of Disability and International Operations


POMS    Program Operations Manual System


PSC     Program Service Center


SSA     Social Security Administration

                                                                       APPENDIX B


                   SAMPLING METHODOLOGY


We obtained a data extract from the Master Beneficiary Record (MBR) of
71,474 student beneficiaries in current pay status as of October 1, 1997. These
cases were identified with a payment status code of “C” on the MBR. In addition, we
obtained two data extracts from the MBR of students whose benefits were terminated
between September 1996 and August 1997. The first of these extracts contained
141,944 students whose benefits were terminated because they did not attend school.
These cases were identified with a payment status code of “T6” on the MBR. The
second extract contained 56,701 students whose benefits were terminated because
they reached age 19. These cases were identified with a payment status code of
“T4” on the MBR. The following table provides information about the student
beneficiaries in our three populations.

                         Table 1 – Population Description

           Population            Population Count            Population Dollars
 Current                             71,474                    $301,728,664
 T6                                 141,944                    $373,432,546
 T4                                  56,701                    $259,954,592
           Total                    270,119                    $935,115,802

We selected a total of 300 cases for review. We randomly sampled 100 cases from
each of the 3 data extracts (i.e., students in current, “T6,” and “T4” payment
status) obtained from the MBR. We reviewed each case to determine the propriety
of benefits awarded to the students and the adequacy of support for the benefit
payments. The following tables provide the details of our sampling results and
statistical projections.

                            Table 2.1 – Sample Results
                                  Overpayments

     Population          Sample Size           Error Count         Error Dollars
 Current                   100                     12                 $28,539
 T6                        100                      9                 $19,504
 T4                        100                     17                 $45,546

      Total                300                     38                 $93,589




                                         B-1
                   Table 2.2 – Statistical Projection of Sample Results
                                Number of Overpayments

                                  90 Percent Confidence Level
     Description                  Current               T6                               T4
  Point Estimate 15                 8,577            12,775                            9,639
  Lower Limit                       5,056             6,780                            6,313
  Upper Limit                      13,375            21,544                           13,833

                   Table 2.3 – Statistical Projection of Sample Results
                                Amount of Overpayments

                                 90 Percent Confidence Level
     Description                  Current              T6                              T4
  Point Estimate 16             $20,397,965       $27,684,758                      $25,825,037
  Lower Limit                    $8,539,009       $10,150,281                      $13,993,268
  Upper Limit                   $32,256,920       $45,219,235                      $37,656,807
  Precision Amount              $11,858,956       $17,534,477                      $11,831,770

                                   Table 3.1 – Sample Results
                                    Unsupported Payments

      Population               Sample Size               Error Count               Error Dollars
  Current                        100                         11                       $41,770
  T6                             100                         11                       $28,874
  T4                             100                         22                      $122,608
       Total                     300                         44                      $193,252

                   Table 3.2 – Statistical Projection of Sample Results
                           Number of Unsupported Payments

                                  90 Percent Confidence Level
     Description                  Current               T6                               T4
  Point Estimate 17                7,862             15,614                           12,474
  Lower Limit                      4,499              8,933                            8,728
  Upper Limit                     12,541             24,909                           16,951



    15
       For illustrative purposes, the total number of overpayments (30,991) represents the sum of the
point estimates from each of the three unrestricted random samples.
    16
       For illustrative purposes, the total amount of overpayments ($73,907,760) represents the sum of
the point estimates from each of the three unrestricted random samples.
    17
        For illustrative purposes, the total number of unsupported payments (35,950) represents the sum
of the point estimates from each of the three unrestricted random samples.


                                                  B-2
                   Table 3.3 – Statistical Projection of Sample Results
                           Amount of Unsupported Payments

                                90 Percent Confidence Level
     Description                 Current              T6                               T4
  Point Estimate 18            $29,854,690       $40,984,911                       $69,519,962
  Lower Limit                  $11,577,917       $18,002,755                       $44,127,236
  Upper Limit                  $48,131,463       $63,967,067                       $94,912,688
  Precision Amount             $18,276,773       $22,982,156                       $25,392,726




    18
       For illustrative purposes, the total amount of unsupported payments ($140,359,563) represents the
sum of the point estimates from each of the three unrestricted random samples.




                                                  B-3
                   APPENDIX C


AGENCY COMMENTS

                                                                             APPENDIX D


  MAJOR CONTRIBUTORS TO THE REPORT


Office of the Inspector General

William Fernandez, Director, Western Program Audit Division


Jack H. Trudel, Deputy Director


Jimmie R. Harris, Senior Auditor


Myra L. Banuelos, Auditor


Cheryl Robinson, Writer-Editor, Technical Services



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-97-61007.
                        APPENDIX E


SSA ORGANIZATIONAL CHART

